                                                             ADVISORY




RECOVERY OVERSIGHT ADVISORY
Transparency and Accountability of Recovery Act Funding to
the Insular Areas and Freely Associated States




Report No.: ROO-MA-MOA-008-2010                                July 2011
Table of Contents
Results in Brief ...................................................................................................... 1
Introduction ............................................................................................................ 3
   Objective ............................................................................................................. 3
   Background ........................................................................................................ 3
      Insular Area Recovery Act Funding ................................................................ 3
      Evaluation Questionnaires .............................................................................. 4
Findings .................................................................................................................. 6
   Oversight – Individual Government Approaches ............................................... 6
   Administrative Cost Recovery ............................................................................ 8
   Cross-Cutting Issues ........................................................................................... 8
      Single Audits – Historical Risks ..................................................................... 8
      Project Inspection........................................................................................... 10
      Recovery Act Web Sites ................................................................................ 10
      Federal Oversight .......................................................................................... 12
   Areas for Improvement .................................................................................... 12
Appendix 1: Scope and Methodology................................................................... 14
Appendix 2: Public Auditors ............................................................................... 16
Results in Brief
Signed into law on February 17, 2009, the American Recovery and Reinvestment
Act of 2009 (Recovery Act) has, among its goals, the stabilization of state, Insular
Area and local government budgets to minimize reductions in essential services.
As beneficiaries of the Act, the Insular Areas and Freely Associated State
governments did not receive Recovery Act funding directly from the U.S.
Department of the Interior (DOI), which has oversight responsibilities. Rather,
approximately $629.3 million in grants came from 11 other executive
departments. Four Insular Area governments received the majority of the funding
(99 percent or $625 million), while the three Freely Associated States received the
remainder (1 percent or $4.3 million).

With statutory oversight for the Insular Areas and Freely Associated States, the
DOI Office of Inspector General (OIG) developed a joint Recovery Act
evaluation approach with the individual public auditors for these governments.
Each audit office agreed to conduct uniform evaluations and issue a report, while
the OIG agreed to produce an overarching report on cross-cutting issues and best
practices.

The four Insular Area governments created oversight organizations to monitor
Recovery Act funding compliance, but the organizational structure, scope of
authority, and quality of oversight for each varied considerably. The three Freely
Associated States did not create separate oversight functions, but conducted
monitoring through existing organizations and internal controls.

The public auditors for American Samoa, Guam, and Commonwealth of the
Northern Mariana Islands (CNMI) subsequently issued individual reports 1 to their
governments. The reports made similar recommendations, emphasizing the
need to:

    •    Perform a risk assessment using historical single audit deficiencies to
         identify control areas that need strengthening to safeguard Recovery Act
         funding;
    •    Increase oversight of the funding drawdown process;
    •    Provide greater accountability over each Recovery Act program;
    •    Improve the accuracy, timeliness, and transparency of the local
         government’s Recovery Act Web sites; and
    •    Provide proactive outreach to local government agencies as well as
         Federal agencies.



1
  The respective reports for Guam and the CNMI can be viewed on the individual public auditor’s Web site:
Guam, //www.guamopa.com; and CNMI, //www.opacnmi.com. To request a copy of the American Samoa
report, call the Territorial Auditor at 684-633-5194.


                                                                                                            1
Based on our observations during field work, we concur with these
recommendations. We further recommend that Insular Areas and Freely
Associated State governments develop comprehensive plans to identify how to
achieve accountability and transparency over Federal funds received. These plans
should include:

   •   A risk assessment, based on historical risks identified in the single audit
       report and identification of controls to mitigate those risks; and
   •   Implementation of procedures for monitoring or inspecting projects during
       execution.




                                                                                 2
Introduction
Objective
The objective of this evaluation was to identify and evaluate the system of
internal controls implemented by Insular Area and Freely Associated State
governments 2 to monitor implementation of and compliance with the American
Recovery and Reinvestment Act of 2009.

Background
Insular Areas Recovery Act Funding
On February 17, 2009, President Obama signed into law U.S. Public Law (PL)
111-5, titled the American Recovery and Reinvestment Act of 2009 (Recovery
Act). Among its goals, the Recovery Act included stabilizing state, Insular Area
and local government budgets to minimize reductions in essential services.

The Insular Area governments did not receive Recovery Act funding directly
from the U.S. Department of the Interior (DOI), which has oversight
responsibility, but did receive approximately $629.3 million from 11 other
executive departments in the form of specific grants under existing domestic
assistance programs. In at least once instance, an Insular Area government also
received a loan. 3




Figure 1. Data compiled from information provided by the public auditors as of 6/30/2010,
excluding any pass-through Recovery Act funds for such programs as food stamps and
income tax credits for individuals.
2
  Insular Area governments are the governments of American Samoa, Commonwealth of the Northern
Mariana Islands (CNMI), Government of Guam, and the U.S. Virgin Islands. The Freely Associated States
are the Federated States of Micronesia, the Republic of the Marshall Islands, and the Republic of Palau.
3
  The American Samoa Telecommunications Agency received a $10 million loan from the U.S. Department
of Agriculture Rural Development as part of a combination grant and loan competitive award to upgrade their
broadband communications network.

                                                                                                         3
Four Insular Area governments received the majority of the funding (99 percent
or $625 million), while the three Freely Associated States received the remainder
(1 percent or $4.3 million).


                        Recovery Funds
                 Received By Each Government
                                                                    Guam        $192.5
                                                                    Am Samoa        $179.4
                                                                    VI          $160.7
                                                                    CNMI            $ 92.4
                                                                    FSM         $ 1.6
                                                                    Palau       $ 1.5
                                                                    Marshalls       $ 1.2


Figure 2. The amounts listed exclude any pass-through Recovery Act funds for such
programs as food stamps and income tax credits for individuals.

Having statutory oversight for the Insular Areas and Freely Associated States, the
DOI Office of Inspector General (OIG) developed a joint Recovery Act
evaluation approach with the public auditors for these governments. Each audit
office agreed to conduct uniform evaluations and issue a report. From these
reports, the OIG would compile an overarching report focusing on cross-cutting
issues and best practices.

This simultaneous, real-time evaluative process differed from the annual single
audit in that we decided to identify potential problems and made suggestions for
improvement early in the Recovery Act performance life.

Evaluation Questionnaires
Our evaluative approach used a five-questionnaire series focusing on specific
functional areas to be completed by each audit office and to ensure consistency of
information collected:

    •   Prior audits and Recovery Act funding;
    •   Oversight agency;
    •   Project verification (limited to 2 to 3 projects);
    •   Procurement agency; and
    •   Public Auditor.

The questionnaires focused on how individual governments monitored the core
Recovery Act objectives. We did not test grant-specific terms and conditions


                                                                                             4
since these varied according to the Federal entity making the award, and solutions
for one program could not be applied to other programs consistently.




                                                                                 5
Findings
Oversight – Individual Government Approaches
Each Insular Area government created an oversight organization to monitor
compliance with the Recovery Act for all funds received. Insular Area public
auditor reports indicated that organizational structure, scope of authority, and
quality of oversight varied considerably among these government organizations.
The three Freely Associated States did not create separate oversight functions for
Recovery Act grants, but relied on the existing government organizations that
traditionally received grant funds and on internal controls already in place.

 Government                  Name                   Enabling               Scope of
                                                    Authority              Oversight

                        American Samoa             Governor’s
                                                                        Executive Branch
                       Economic Stimulus         Executive Order
    American                                                            and Autonomous
                      and Recovery Office         No. 003-2009,
     Samoa                                                                  Agencies
                           (ASESRO)                dated 3/6/09


 Commonwealth
     of the
                                                  Created by the
   Northern           CNMI ARRA Office                                  Executive Branch
                                                  Governor 8/09
 Mariana Islands
    (CNMI)


                       Bureau of Budget
                       and Management               Governor
                                                                        Executive Branch
                       Research (BBMR)          designated BBMR
      Guam                                                              and Autonomous
                                                as the lead agency
                                                                            Agencies
                        (Guam’s Budget                 3/09
                            Office)


                                                  Public Finance
                      Office of Economic         Authority passed       Executive Branch
  Virgin Islands      Opportunity (OEO)         Resolution 09-018,      and Autonomous
                       thru a contractor          dated 6/12/09             Agencies

                                                creating the OEO

Figure 3. Government agencies formed with oversight responsibility for Recovery Act funds.



                                                                                         6
American Samoa
The Governor of American Samoa created the American Samoa Economic
Stimulus and Recovery Office (ASESRO) through an executive order, dated
March 6, 2009, to monitor and track Recovery Act projects and expenditures. The
Samoa public auditor found that although ASESRO set up office space, monitored
some projects, and reviewed project expenditures, it still demonstrated significant
weaknesses. These included, but were not limited to, the creation of unreliable
expenditure reports, failure to monitor reconciliation of drawdown and receipt of
Recovery Act funds, and failure to completely inspect projects.

CNMI
Initially, the CNMI Governor assigned Recovery Act oversight and monitoring of
executive branch departments and agencies to a state lead with the dual
responsibility of also directing an executive branch agency. One person on a part-
time basis could not manage the job and in August 2009, the Governor created a
dedicated oversight office to handle the workload associated with monitoring
quarterly reporting and competitive procurement. Drawdown and reconciliation of
Recovery Act funds by CNMI’s Finance Department were not monitored by this
office. Instead, the Department functioned without oversight, even though the
Single Audit had identified that one-third of the findings could be attributed to a
lack of documentation and record retention for grant expenditures.

Guam
The Governor of Guam designated the Bureau of Budget and Management
Research (BBMR) as the lead Recovery Act oversight agency. Assisting BBMR
was the Guam State Clearinghouse, which publicized Recovery Act grant
opportunities and reviewed grant applications. According to the public auditor’s
report, BBMR primarily compiled a government-wide quarterly report on the
status of Recovery Act funds by agency that was posted on Guam’s Recovery Act
Web site. This effort duplicated the internet-based quarterly reporting that each
agency receiving funds had to comply with as part of the Recovery Act and grant-
specific requirements.

Virgin Islands
In May 2009, the Virgin Islands Legislature required the Governor to submit data
on Recovery Act funds accepted and declined, as well as detailed reports on the
use of funds received. On June 12, 2009, the Virgin Islands Public Finance
Authority established the Office of Economic Opportunity (OEO) as the focal
point for all Recovery Act tracking, monitoring, and accounting, but the OEO
lacked a full-time staff. Subsequently, the Finance Authority contracted with a
consultant in Washington, DC, to perform the OEO’s duties. As a result, the
consultant only used indirect means such as emails, fax transmissions and
telephone conversations to monitor the Recovery Act programs.




                                                                                 7
Freely Associated States
The individual governments of the Federated States of Micronesia (FSM) and the
Republics of the Marshall Islands and Palau relied on existing government
organizations and internal grant controls to monitor Recovery Act grants. Direct
outreach by Federal grants personnel to their counterparts in the individual Freely
Associated State governments reinforced this approach. During OIG fieldwork in
Palau and the Marshall Islands, program officials stated that their Federal
counterparts notified them of funding availability and the special requirements of
the Recovery Act.

We found that not establishing a separate oversight agency may have been
justified due to the small amount of Recovery Act funds received. Nevertheless,
agencies receiving such funds still needed to inform the national government. For
example, FSM’s public auditor identified that the FSM agency responsible for
obtaining U.S. and foreign assistance did know that the Department of Health
applied for and received $351,656 in Recovery Act funds from the Health and
Human Services (HHS) Centers for Disease Control. We also identified additional
Recovery grants totaling $1,234,236 from HHS Health Resources and Services
Administration ($1,141,236) and U.S. Forest Service ($93,000) unknown to both
FSM and the public auditor.

Administrative Cost Recovery
To help local governments build capacities to meet Recovery Act responsibilities,
OMB issued guidance (Memorandum M-09-18, dated May 11, 2009) allowing
Recovery Act administrative costs to be recouped through state-wide cost
allocation plans, submitted to HHS annually for review and approval. Only CNMI
has submitted and received an approved cost allocation rate that includes a
percentage for Recovery Act-specific administrative costs. The other Insular
Areas and the Freely Associated States have funded their oversight costs through
local appropriations or a Governor’s Office grant (Guam).

Cross-Cutting Issues
Although Insular Areas and Freely Associated States identified problematic
oversight functionality issues, the following cross-cutting topics impacted all the
governments:

   •   Single audits – historical risks;
   •   Project inspection;
   •   Recovery Act Web sites (project funding, procurement, and autonomous
       agencies issues); and
   •   Federal oversight.

Single Audits – Historical Risks
Using internal controls in response to Recovery Act responsibilities serves as a
way to manage risk upfront. Identification of historical control weaknesses


                                                                                      8
through single audits 4 and assessments of how best to mitigate the risks associated
with these weaknesses could benefit Insular Areas and Freely Associated States.
These governments did not perform this assessment.

The single audit is the only review of Federal assistance performed annually at the
end of each fiscal year. The audit tests transaction cycle controls over cash
management, expenditures, reporting and property procurement, which are the
same areas required for monitoring Recovery Act funds. Risk assessments using
single audit results were not performed, however, by Insular Areas or Freely
Associated States. Consequently, control areas demonstrating previous
weaknesses went unmonitored when such monitoring might have prevented
similar problems from occurring with Recovery Act funds.

For example, American Samoa’s fiscal year 2007 single audit identified
insufficient detail to justify grant reimbursement requests for allowable
expenditures. ASESRO reviewed Recovery Act grant expenditures for
allowability and allocability. The office did not periodically reconcile the
drawdown and receipt of Recovery Act funds by the Treasurer’s Office to ensure
that the funds received matched the expenditures incurred.

The Virgin Island’s public auditor reported that single audits for fiscal years 2004
through 2008 consistently found weak internal controls that left Federal funds at
“high risk.” The public auditor found that only the respective Federal grantor
agencies monitored the funds. Further, the consultant hired by OEO stated that
they used after-the-fact as opposed to concurrent monitoring.

We found that failure to perform a risk assessment in the early days of Recovery
Act funding resulted from several factors:

    •    OMB Recovery Act guidance only emphasized the need for Federal
         agencies to perform risk assessments;
    •    Insular Area and Freely Associated State governments and Federal
         agencies have relied on and paid for the annual single audit since 1986,
         which emphasized corrective action after each annual audit; and
    •    Employees staffing oversight offices either lacked experience in
         performing risk assessments or the manpower to conduct risk assessments.

Further, individual public auditor offices could not have performed a risk
assessment because of limited staff resources and an emphasis on auditing locally
funded programs and government entities.



4
  The Single Audit Act of 1984, as amended, requires state and local governments that spend $500,000 or
more a year in financial assistance to undergo annual reviews known as a single audit. These audits help to
provide assurance that the Federal funds were used appropriately and identify internal control weaknesses in
an entity’s transaction cycles.


                                                                                                           9
Project Inspection
Inspections documenting the attainment of program objectives were limited to
construction projects and typically performed by public works departments’
personnel. The CNMI recovery office tracked projects through the project
manager’s weekly reports without visiting individual sites. Guam’s BBMR office
lacked staff to perform inspections and, therefore, delegated inspection
responsibility to agencies receiving the funds. The Virgin Islands contractor hired
by OEO also did not perform project inspections. Only American Samoa’s
ASESRO hired actual inspectors to monitor completion of construction and non-
construction projects, including testing for compliance with Davis-Bacon and Buy
American provisions.

Recovery Act Web Sites
Transparency in Use of Recovery Funds
The Governments of American Samoa, CNMI, Guam, and the Virgin Islands
established Web sites to demonstrate transparency in Recovery Act activities. We
question the usefulness of these sites that public auditors reported to contain
generally outdated or limited financial and program performance information.
The Freely Associated States did not establish specific Web sites for Recovery
Act information and their existing national government Web sites contained very
little financial information on Federal grants and no information on Recovery
Act grants.

Although the Recovery Act emphasized transparency and accountability, it did
not require agencies receiving grants to establish Recovery Act-specific Web
sites. Instead, state and local governments receiving infrastructure funds only had
to make a certification on “a website [sic]” 5 as well as the Recovery Oversight
and Transparency Board (RATB) Web site that funds received for infrastructure
investment were used for these purposes. The lack of specific Web requirements
and standards led either to inaccurate or to no information concerning project
funding, procurement activity, and autonomous agencies.

Project Funding
Grant information available on Web sites specifically created to provide Recovery
Act data generally tended to be either inaccurate or old data. ASESRO initially
developed its site with contractor assistance, but the public auditor found that
poor cooperation between the two entities allowed posting of inaccurate
information. CNMI’s public auditor reported that for a 6-month period the CNMI
Recovery Act site had not been updated. The Guam public auditor also reported
that BBMR did not verify the accuracy of data submitted by agencies. As of
September 30, 2010, a $2.0 million variance was identified on the Web site,
Recovery.Guam.gov ($234.6 million) as compared to Federal.Recovery.gov
($236.6 million), which had not been resolved. In addition, the public auditor for
the four entities reviewed during their evaluation identified a $679,313 difference
in program awards between the Guam and Federal Recovery Act Web sites. The
5
    Section 1511, Certifications, Subtitle A-Transparency and Oversight Requirements, Recovery Act.

                                                                                                      10
Virgin Islands public auditor noted that received funds displayed on the Virgin
Islands site had been underestimated by $6.5 million. Only after the Web site
consultant received notification was the error corrected.

Procurement
The four Insular Area governments and the three Freely Associated States used
established procurement codes that emphasized competitive procurement of
materials, equipment, and contractual services. Procurement solicitations and
awards funded through Recovery Act dollars were inconsistently posted on
Recovery Act Web sites. For example, the RATB received a formal complaint
from an American Samoa business owner concerning the lack of openness and
transparency by the Samoa Recovery Act office, because ASESRO’s Web site did
not list projects and related procurement opportunities. The CNMI public auditor
identified a similar lack of transparency surrounding procurement. Guam’s
Recovery site did not report any procurement activity. In contrast, Virgin Islands’
OEO site posted upcoming procurements and contract awards, but offered no way
to determine how the vendors who were awarded the contracts were selected.

Autonomous Agencies
Information on project awards and expenditures plus procurement activities for
autonomous agencies also was posted inconsistently on either the autonomous
agencies’ or the oversight agencies’ Web sites. Samoa’s telecommunications
agency received more than $91 million (an $81.04 million grant and a $10 million
loan) from the Rural Development Agency’s Broadband Initiatives Program,
although neither the agency nor ASESRO posted award and potential follow-on
procurement information on their respective Web sites.

The CNMI public auditor reported that Recovery Act information for autonomous
agencies either went unmentioned or was not updated on the respective agencies’
sites. BBMR’s Recovery.Guam.gov presented awards and expenditures
information in a spreadsheet format for all departments and agencies, including
autonomous agencies. The Web site also provided links to the autonomous
agencies’ sites. The Department of Education, an autonomous agency and Guam’s
largest recipient of Recovery Act funds ($89.2 million), listed procurement
activity on its site, but failed to identify procurement solicitations and awards for
Recovery Act programs. Further, the department provided only minimal
information about programs benefitting from these funds.

We found that the absence of a specific requirement to post Recovery Act award
and expenditure information, as well as related procurement opportunities and
project descriptions on a local government Web site undermined transparency for
the funds awarded to the Insular Areas and Freely Associated States. Further, the
absence of a similar requirement for Federal grants awarded prior to the Recovery
Act contributed to the problem.




                                                                                  11
Federal Oversight
The quarterly reporting requirements established under Section 1512 of the
Recovery Act increased those previously required by grantor agencies before the
Recovery Act. Outreach by Federal personnel played a key role in ensuring that
quarterly reports appeared on the Recovery Act reporting Web site
(www.Recovery.gov). Overall, we noted that positive relationships among the
Federal agencies, the Insular Area governments, and the Freely Associated State
governments generally enhanced implementation of Recovery Act programs.

The effects of this interaction are illustrated by the HHS Centers for Disease
Control and the Health Resources and Services Administration whose personnel
worked closely with the Republics of Palau and the Marshall Islands’ Ministries
of Health to implement Recovery Act grants. Their activities included providing
training, as well as encouraging questions from local agency officials.

In another example, the Guam public auditor reported that the U.S. Federal
Highway Administration established a level of oversight that required their
approval of all procurement documents pertaining to a $6.5 million road
infrastructure project. We observed the same level of oversight with a $4.5
million road resurfacing project in American Samoa. This high level of control
reinforced correct use of road infrastructure funds.

Areas for Improvement
The public auditors for American Samoa, Guam, and CNMI issued individual
reports 6 to their governments based on their field work during this joint evaluation
effort. Each report contained individual recommendations aimed at strengthening
the government’s oversight of Recovery Act funds received. Their
recommendations addressed the need to:

    •    Perform an overall risk assessment using historical single audit
         deficiencies to identify control areas that need strengthening to safeguard
         Recovery Act funding;
    •    Increase oversight of the funding drawdown process;
    •    Provide greater accountability over each Recovery Act program;
    •    Improve the accuracy, timeliness, and transparency of the local
         government’s Recovery Act Web sites; and
    •    Provide proactive outreach to local government agencies as well as
         Federal agencies.

Based on our review of their reports, as well as our observations during field
work, we concur with these recommendations. We further recommend that Insular
Area and Freely Associated State governments develop comprehensive plans to

6
  The respective reports for Guam and the CNMI can be viewed on the individual public auditor’s Web site:
Guam, //www.guamopa.com; and CNMI, //www.opacnmi.com. To request a copy of the American Samoa
report, call the Territorial Auditor at 684-633-5194.

                                                                                                       12
identify how to effectively achieve accountability and transparency over Federal
funds received. These plans should include:

   •   A risk assessment, based on historical risks identified in annual single
       audits and identification of controls to mitigate those risks; and
   •   Implementation of procedures for monitoring or inspecting projects during
       execution.




                                                                               13
Appendix 1: Scope and Methodology
Scope
The public auditors conducted their field work from April 1, 2010 to September
30, 2010, which included completion of specific questionnaires addressed to their
governments’ Recovery Act oversight agencies, selected Recovery Act program
managers, and senior procurement officers, as well as the public auditors’ own
anticipated oversight.

Each public auditor identified Recovery Act grants, loans, and contracts, as well
as expenditures dating to June 30, 2010. Prior single audit report deficiencies in
the following categories were identified for areas of potential risk to Recovery
Act funds:

Grant accounting and unallowable costs;
Procurement;
Sub recipient monitoring; and
Property management.

Due to existing workload and staffing limitations with the public auditor offices in
the Republics of the Marshall Islands and Palau, U.S. Virgin Islands, and
American Samoa, OIG staff assisted with completion of the questionnaires for
those respective governments. As of April 15, 2011, the public auditors for
American Samoa, Guam, and CNMI had issued their respective final reports.

Methodology
Development of questionnaires helped ensure consistency of Recovery Act data
collected from each of the governments reviewed. Specific topics included:

   •   Oversight office (creation, mission, and staffing);
   •   Project accounting (funding receipt/disbursement);
   •   Risk assessment;
   •   Procurement (acquisition planning and open procurement);
   •   Review of expenditures;
   •   Quarterly reporting;
   •   Project inspection; and
   •   Program transparency (public access to program information).

Since Recovery Act grants, loans, and contracts awarded to the respective
governments of the Insular Areas and Freely Associated States have program-
specific terms and conditions in addition to their Recovery Act-specific terms,
evaluations did not determine compliance with individual program-specific
requirements, but rather collected data on the oversight that was being provided.



                                                                                 14
This joint evaluation effort was conducted in accordance with the Quality
Standards for Inspection and Evaluation as put forth by the Council of the
Inspectors General on Integrity and Efficiency. Accordingly, tests of records that
were considered necessary under the individual circumstances were included.




                                                                                 15
Appendix 2: Public Auditors for the
Insular Areas and Freely Associated
States
Insular Areas
Territory of American Samoa
Mr. Robert Paul Dantini, CPA
Territorial Auditor
Territorial Audit Office

Commonwealth of the Northern Mariana Islands
Mr. Michael Pai, CPA
Public Auditor,
Office of Public Auditor

Territory of Guam
Ms. Doris Flores Brooks, CPA, CGFM
Public Auditor
Office of Public Accountability - Guam

U.S. Virgin Islands
Mr. Steven van Beverhoudt, CFE, CGFM
Virgin Islands Inspector General,
Office of the Virgin Islands Inspector General

Freely Associated States
Federated States of Micronesia
Mr. Haser Hainrick
Public Auditor
Office of National Public Auditor

Republic of the Marshall Islands
Mr. Junior Patrick
Auditor-General
Office of the Auditor General

Republic of Palau
Mr. Saturino Tewid
Public Auditor, Acting
Office of Public Auditor


                                                 16
          Report Fraud, Waste,
          and Mismanagement
              Fraud, waste, and mismanagement in
             Government concern everyone: Office
            of Inspector General staff, Departmental
             employees, and the general public. We
                actively solicit allegations of any
            inefficient and wasteful practices, fraud,
                 and mismanagement related to
             Departmental or Insular Area programs
                 and operations. You can report
                allegations to us in several ways.


By Internet:       www.doioig.gov

By Phone:          24-Hour Toll Free:                800-424-5081
                   Washington Metro Area:            703-487-5435

By Fax:            703-487-5402

By Mail:           U.S. Department of the Interior
                   Office of Inspector General
                   Mail Stop 4428 MIB
                   1849 C Street, NW.
                   Washington, DC 20240
